   August 27, 2003




Logistics


Condition Based Maintenance-Plus
(D-2003-125)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ADIP                  Army Diagnostic Improvement Program
CBM+                  Condition Based Maintenance-Plus
ICAS                  Integrated Condition Assessment System
IMD-HUMS              Integrated Mechanical Diagnostic Health and Usage Monitoring
                         System
LMI                   Logistics Management Institute
OSD                   Office of the Secretary of Defense
RCM                   Reliability Centered Maintenance
SIM                   Serialized Item Management
         Office of the Inspector General of the Department of Defense
Report No. D-2003-125                                                   August 27, 2003
  (Project No. D2003LH-0025)

                      Condition Based Maintenance-Plus

                                Executive Summary

Who Should Read This Report and Why? Civil service and uniformed officers who
are involved in major weapon system procurement or maintenance should read this
report. The report discusses the DoD plan for incorporating embedded diagnostic
equipment and sensors into new weapon systems and, where cost-effective, legacy
weapon systems in order to reduce the maintenance costs and thereby reduce total DoD
ownership costs.

Background. This audit was initiated to determine whether DoD was still achieving the
maintenance savings from reliability centered maintenance that were identified in
Inspector General of the Department of Defense Report No. 91-098, “Aircraft Depot
Maintenance Programs,” June 17, 1991. During the survey phase of this audit, we found
that DoD was implementing a new maintenance concept (condition based maintenance-
plus) that focuses on the actual condition of the weapon system and its components when
determining maintenance requirements as opposed to time-phased or preventive
maintenance procedures. Condition based maintenance-plus is one of the six initiatives
of the Future Logistics Enterprise that is being implemented under the direction of the
Deputy Under Secretary of Defense (Logistics and Materiel Readiness). The objective of
the Future Logistics Enterprise is to provide integrated end-to-end logistical support.

Results. DoD was in the process of implementing a maintenance concept called
condition based maintenance-plus. Maintenance requirements under condition based
maintenance-plus are driven by the need to repair or replace the components based on the
actual condition of the component as diagnosed by embedded sensors or external
diagnostic equipment. DoD has developed a time-phased plan to implement the
condition based maintenance-plus initiative. The plan is to evaluate incorporating
condition based maintenance-plus technology into new weapon systems, and legacy
systems, where cost-effective. The procedures and schedules contained in the
implementation plan appear reasonable. Although the implementation process was in the
early stages, and we could not formulate any conclusions on the effectiveness of the
program, continued management emphasis and oversight will be needed to ensure the
condition base maintenance-plus initiative is effectively implemented as planned within
the Military Departments.

Management Comments. We provided a draft of this report on August 5, 2003. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.
Table of Contents

Executive Summary                                                      i

Background                                                            1

Objectives                                                            3

Finding
     Implementation of Condition Based Maintenance-Plus Within DoD    4

Appendixes
     A. Scope and Methodology                                         10
     B. Selected Initiatives Under Condition Based Maintenance-Plus   11
     C. Report Distribution                                           13
Background

    Maintenance accounts for a major portion of the total ownership costs of weapon
    systems within DoD. DoD estimated that it spends in excess of $15 billion
    annually on depot maintenance. In the mid-1970s, DoD implemented Reliability
    Centered Maintenance (RCM) to increase the reliability and operational readiness
    of its weapon systems and reduce maintenance costs. RCM was originated by the
    Air Transport Association in the late 1960s, and has since been implemented by
    the airline industry.

    Reliability Centered Maintenance. RCM is defined as a process used to
    determine what actions must be taken to ensure that a physical asset continues to
    do what its users want it to do in the environment that it was intended to operate.
    To accomplish that goal, RCM uses a logical and disciplined analytical procedure
    to identify what may cause an asset to fail to operate, and what adverse
    consequence that failure would have on areas such as business operations,
    personnel safety, and environmental protection. Based on the results of the
    analysis, a plan of action is developed that could result in a new or revised
    maintenance procedure, inspection, or, in the most severe case, an equipment
    redesign.

    In the mid-1970s, the Office of the Secretary of Defense (OSD) established a
    requirement for the Military Departments to use the RCM process to determine
    preventive maintenance for both new and fielded systems. DoD issued its first
    formal guidance regarding RCM in August 1984.

    RCM Guidance. DoD Directive 4151.16, “DoD Equipment Maintenance
    Program,” August 23, 1984, stated that RCM would be used as the basis for
    establishing and sustaining preventive maintenance programs for all DoD
    equipment. The directive also required the Military Departments to use RCM to
    justify new or modified maintenance tasks and to continually evaluate existing
    tasks. DoD Directive 4151.18, “Maintenance of Military Materiel,” August 12,
    1992, replaced DoD Directive 4151.16 and deleted the requirement for the
    Military Departments to use RCM analyses.

    Military Department Guidance on RCM. The Military Departments’
    regulations still require that RCM analyses be updated on operational systems.
    However, since DoD Directive 4151.16 was replaced, the Military Departments
    placed less emphasis on RCM analyses. In addition, General Accounting Office
    Report No. GAO/NSIAD-93-163, “Depot Maintenance: Requirement to Update
    Maintenance Analyses Should Be Modified,” June 22, 1993, states that officials
    within the Military Departments believed that performing or updating RCM
    analyses on operational systems with extensive maintenance histories was not
    cost-effective because the analyses are expensive to perform and would not


                                         1
significantly reduce maintenance requirements. The report further states that
officials from the Air Transport Association and the Federal Aviation
Administration supported the position that RCM was not cost-effective. Many of
the weapon systems within the DoD inventory fall into the category of mature
systems with extensive maintenance histories.

The Future Logistics Enterprise. The Deputy Under Secretary of Defense
(Logistics and Materiel Readiness) is implementing the Future Logistics
Enterprise to achieve end-to-end customer service within DoD logistics
operations. The Future Logistics Enterprise, which began in September 2001,
comprises the following six initiatives.

       •   Condition Based Maintenance-Plus (CBM+). CBM+ is a broad-based
           maintenance concept intended to predict equipment failures based on
           real-time or near real-time assessment of equipment condition
           obtained from embedded sensors and external tests and measurements
           using portable equipment. The intent of CBM+ is to reduce
           maintenance down time and increase operational readiness by
           repairing or replacing system components based on the actual
           condition of the component as opposed to other maintenance concepts,
           such as scheduled or time-phased maintenance procedures.

       •   Depot Maintenance Partnerships. The primary intent of depot
           maintenance partnerships is to enhance depot support by enabling
           DoD depots to develop appropriate partnerships with the commercial
           sector, while recognizing the legitimate national security need for DoD
           to retain depot maintenance capability.

       •   Total Life Cycle Systems Management. The Total Life Cycle Systems
           Management initiative calls for program managers to be responsible
           for the overall management of the weapon system life cycle, to include
           acquisition, meeting of performance requirements, integration into the
           force, and sustainment throughout the system’s life cycle.

       •   End-to-End Distribution. The objective of this initiative is to
           influence acquisition, sourcing, positioning, and transportation of
           materiel to its end user, ensuring that deployment and sustainment are
           synchronized.

       •   Executive Agents. Without clear and quantified requirements, the
           assigned Executive Agent cannot adequately plan to provide the
           needed support. This initiative is aimed at improving support to the
           warfighters by ensuring that the Executive Agent roles,
           responsibilities, resources, and capabilities are responsive to the



                                    2
               supported Unified Command’s deployment and sustainment
               requirements.

           •   Enterprise Integration. This initiative builds on efforts underway
               within the Services and the Defense Logistics Agency that
               successfully use commercial off-the-shelf tools for modern, integrated
               solutions to complex information requirements across the DoD
               logistics enterprise.


Objectives

    Our overall audit objective was to evaluate the implementation and sustainment of
    the Military Departments’ maintenance programs designed to reduce aircraft
    depot maintenance costs and to review the management control program
    applicable to the audit objectives. We did not complete the objective on the
    management control program because the plans for implementing CBM+ had not
    been completed and a management control program had not been developed. See
    Appendix A for a discussion of the audit scope and methodology.




                                        3
           Implementation of Condition Based
           Maintenance-Plus Within DoD
           DoD was in the process of implementing a maintenance concept called
           CBM+. Maintenance requirements under CBM+ are driven by the need to
           repair or replace the components based on the actual condition of the
           component as diagnosed by embedded sensors or external diagnostic
           equipment. The CBM+ maintenance concept contrasts with traditional
           maintenance procedures, which primarily rely on time-phased (scheduled)
           maintenance, preventive maintenance, or “run to failure.” DoD has
           developed a time-phased plan to implement the CBM+ initiative. The
           procedures and schedules contained in the implementation plan appear
           reasonable. Although the implementation process was in the early stages,
           and we could not formulate any conclusions on the effectiveness of the
           program, continued management emphasis and oversight will be needed to
           ensure the CBM+ initiative is effectively implemented as planned within
           the Military Departments.


CBM+ Concept

    CBM+ is a broad-based maintenance concept that focuses on real-time or near
    real-time assessment of equipment condition obtained from embedded sensors
    and external tests and measurements using portable equipment. CBM+ contrasts
    with reactive (run to failure) and preventive maintenance (scheduled) concepts.
    The CBM+ concept includes any maintenance procedure or initiative that
    identifies maintenance requirements based on the actual condition of the weapon
    system.

    Application. The CBM+ concept is to evaluate and incorporate CBM+
    technologies into new weapon system acquisitions, such as the Joint Strike
    Fighter Program, which is developing the Prognostic and Health Management
    System for incorporation into Joint Strike Fighter aircraft. The CBM+ initiative
    will also evaluate incorporating CBM+ technologies into legacy systems where it
    is cost-effective. For example, the Integrated Mechanical Diagnostic Health and
    Usage Monitoring System was being installed on the Navy SH-60 and the Marine
    Corps CH-53 helicopters and was being tested by the Army for use on the UH-60
    helicopter. Other systems and initiatives already in use that will be part of the
    CBM+ initiative include Serialized Item Management, the Army Diagnostic
    Improvement Program, and the Navy Integrated Condition Assessment System.
    See Appendix B for brief descriptions of those initiatives.




                                        4
           Logistics Management Institute Study. In August 2000, the Logistics
           Management Institute (LMI) issued a report on the results of their assessment of
           condition based maintenance* in the Department of Defense. The assessment
           included a review of four initiatives that were either ongoing or under
           development and would be included in the CBM+ maintenance concept. In
           addition to the four initiatives included in the assessment, the LMI report noted
           that the Military Departments were testing a number of programs that employed
           condition based maintenance technologies. Several of those programs were at
           various stages of actual development and evaluation. The LMI study concluded
           that condition based maintenance has the potential to increase operational
           readiness and mission reliability, as well as prevent unnecessary maintenance.
           The study’s recommendations included increasing Service awareness of condition
           based maintenance concepts, improving coordination of individual Service
           initiatives, and issuing policy guidance on condition based maintenance.


CBM+ Guidance and Oversight

           DoD will provide the overall policy and guidance to establish the framework and
           authority to facilitate the implementation of CBM+ within DoD. The
           Maintenance Technology Senior Steering Group will be responsible to oversee
           the implementation of CBM+ initiatives. The Services will be responsible for the
           development and implementation of their individual CBM+ plans and initiatives.

           CBM+ Policy. In November 2002, Deputy Under Secretary of Defense (Logistics
           and Materiel Readiness) issued an interim policy memorandum on CBM+
           implementation. The policy states that all Major Defense Acquisition Programs
           will consider CBM+ technologies as system performance requirements during the
           design and development phase and throughout the life cycle of the acquisition.
           The policy states that incorporation of CBM+ into legacy weapon systems would
           be based on the results of a cost benefit review for each legacy system that is a
           candidate for CBM+ technology. The interim policy also defines the specific
           objectives anticipated to be achieved by implementing CBM+ and tasks the
           Maintenance Technology Senior Steering Group with monitoring CBM+
           implementation. The Steering Group is chaired by the Assistant Deputy Under
           Secretary of Defense (Maintenance Policy, Programs and Resources) and consists
           of senior logistics representatives from the Services; representatives from the
           Offices of the Secretary of Defense that deal with logistics technology; and the
           Director, Joint Depot Maintenance Activities Group. The overall mission of the
           Steering Group is to provide visibility and assist in the coordination of the

*
    The LMI study discussed in this paragraph addresses condition based maintenance. The rest of this report
    uses the DoD term, Condition Based Maintenance-Plus (CBM+), which is the program DoD is in the
    process of implementing.



                                                      5
logistics technology initiatives of the Military Services, the Defense Logistics
Agency, and the Joint Staff.

Maintenance Technology Senior Steering Group. In addition to having
oversight responsibility for CBM+ initiatives, the Maintenance Technology Senior
Steering Group will provide a forum for the exchange of information about CBM+
to ensure that all CBM+ efforts within DoD are appropriately coordinated and
synchronized. The Steering Group also has the responsibility to manage the
CBM+ Advisory Group that it chartered to assist with CBM+ implementation
throughout the DoD acquisition, logistics, and maintenance processes. The
Advisory Group consists of representatives from the Office of the Assistant
Deputy Under Secretary of Defense (Maintenance Policy, Programs and
Resources), the Army, Navy, the Air Force, the Marine Corps, the Joint Staff, and
the Defense Logistics Agency. The representative from the Office of the
Assistant Deputy Under Secretary of Defense (Maintenance Policy, Programs and
Resources) chairs the Advisory Group and, together with the chair of the
Maintenance Technology Senior Steering Group, is responsible for updating the
Deputy Under Secretary of Defense (Logistics and Materiel Readiness) on CBM+
progress and issues.

CBM+ Advisory Group. The mission of the Advisory Group is to assist in
CBM+ implementation throughout the Department’s logistical and maintenance
operations. To accomplish its mission, the Advisory Group’s charter states that it
will be responsible for accomplishing the following objectives.

       •   Prepare draft OSD policy on CBM+ and routinely revise the policy as
           necessary.

       •   Provide guidance and recommendations to the Services during their
           development of the individual Service CBM+ plans.

       •   Establish an active clearinghouse for CBM+ information for the use of
           the Services.

       •   Monitor and coordinate CBM+ efforts throughout DoD.

       •   Advise the Maintenance Technology Senior Steering Group and others
           on CBM+ issues.

At a minimum, the Advisory Group will meet within 2 to 3 weeks before the
quarterly meetings of the Maintenance Technology Senior Steering Group.
Additional meetings will be scheduled as deemed necessary.




                                     6
CBM+ Implementation Plan

    To accomplish the CBM+ objectives, an action plan was developed by the Office
    of the Assistant Deputy Under Secretary of Defense (Maintenance Plans,
    Programs and Resources). The plan is divided into five major areas and lists
    specific actions that must be completed for each area.

    Establishing the Framework. This area primarily involves developing and
    publishing top-level policy. The actions required to complete this area of the plan
    follow.

           •   Incorporate CBM+ direction into the 4000 and 5000 series guidance
               (will be done as required).

           •   Issue interim DoD policy (completed, November 2002).

           •   Services establish CBM+ implementation plans (January 2004).

    Changing the Environment. Actions under this area focus on changing the
    maintenance environment by encouraging CBM+ initiatives and assisting in
    implementing technological improvements. The first step will be to identify what
    CBM+ initiatives are available and evaluate the level of success for each
    initiative. To identify and evaluate the success of CBM+ initiatives, a survey will
    be conducted and input solicited from within the Services as well as from the
    private sector. To accomplish the objectives of this area of the plan, the following
    actions must be completed.

           •   Catalog and characterize the most beneficial maintenance technologies
               and processes (October 2003).

           •   Conduct surveys of specific programs and activities (October 2003).

           •   Compile survey results (January 2004).

           •   Develop an outline to establish the DoD CBM+ baseline (April 2004).

    Synchronize Initiatives. Many of the objectives of CBM+ can be accomplished
    by similar maintenance techniques and technologies. Therefore, it is imperative
    that there is adequate coordination within and among the Services to eliminate
    duplication of effort and increase commonality to the greatest extent possible. A
    centralized CBM+ repository, containing information on various successful and
    unsuccessful CBM+ initiatives, will assist program managers in selecting those
    initiatives that have the highest potential for successful implementation. A
    centralized repository can also promote the use of the same technology for



                                         7
different weapon systems. To effectively implement the objectives of this area of
the plan, the following actions need to be accomplished.

       •   Develop an accessible central repository for CBM+ information
           (July 2003).

       •   Obtain and include valid, current information in the central repository
           (as available).

       •   Develop a strategy to assess Service CBM+ plans (April 2004).

       •   Provide a roadmap for CBM+ initiatives (May 2004).

Investment Justification. Actions under this area will concentrate on assisting
program managers in investing in CBM+ initiatives. As with any budgetary
request, justification must be provided during the budgetary process.
Implementing CBM+ initiatives often requires an investment in hardware,
software, design, engineering, and analysis, which can present a formidable
challenge in obtaining the required funding. Completing the following actions
will assist program management offices in overcoming the challenge of
investment justification.

       •   Review programs with CBM+ initiatives for business case analysis
           (April 2004).

       •   Review programs with CBM+ initiatives for documented operational
           readiness impact studies (April 2004).

Managing for Success. This area deals with establishing oversight mechanisms
for CBM+ implementation and progress review. Establishing a disciplined
progress review process will ensure new personnel become aware of CBM+ and
that available CBM+ technologies are incorporated into new weapon systems to
the extent possible so that CBM+ implementation stays on track. To ensure
continued success of CBM+ implementation, the following actions need to be
accomplished.

       •   Assign oversight responsibilities to the Maintenance Technology
           Senior Steering Group (completed).

       •   Establish a CBM+ Advisory Group (completed).

       •   Review the individual Service CBM+ plans (March 2004).

       •   Report on the status of CBM+ initiatives annually and respond to
           taskings from the Steering Group (ongoing).


                                     8
Conclusion

    CBM+ is one of six initiatives that DoD is implementing to streamline logistics
    and provide the customer with end-to-end service. CBM+ has the potential to
    decrease the cost of maintenance and, at the same time, to increase the operational
    readiness of the system. By employing the CBM+ concept, which is driven by
    need as opposed to time-phased maintenance procedures, unnecessary
    maintenance efforts can be reduced, thereby reducing the total cost of weapon
    system support. As of March 2003, DoD had a time-phased plan of action for
    implementing the CBM+ initiative. However, the implementation process was in
    the early stages and, as a result, quantitative data was not available to evaluate the
    effectiveness of the program at the time of this audit. As with any initiative that
    involves cross-Service implementation, continued management emphasis and
    oversight will be needed to ensure that the implementation of the CBM+ initiative
    continues as planned.




                                          9
Appendix A. Scope and Methodology
    We reviewed policies, procedures, processes, and guidance regarding DoD depot
    maintenance that were applicable to the audit objective. We also reviewed the
    CBM+ implementation plan, briefings, studies, and other documentation
    applicable to the CBM+ initiative. The information reviewed covered a period
    from August 2000 through March 2003. We met with personnel from the Office
    of the Assistant Deputy Under Secretary of Defense (Maintenance Policy,
    Programs and Resources); the Office of the Army Deputy Chief of Staff for
    Logistics; the Army Aviation and Missile Command; the Army Materiel
    Command; the Naval Air Systems Command; and the Office of the Air Force
    Deputy Chief of Staff for Installations and Logistics.

    We performed this audit from December 2002 through July 2003 in accordance
    with generally accepted government auditing standards. The initial survey work
    focused on determining how effectively the Services had implemented RCM at
    aircraft maintenance depots and that work was performed at Tinker Air Force
    Base in Oklahoma City, Oklahoma; Naval Air Depot Cherry Point in Cherry
    Point, North Carolina; Naval Air Systems Command, Patuxent River, Maryland;
    and Redstone Arsenal Army Depot, Huntsville, Alabama.

    During the survey phase of this audit, we found that DoD was implementing a
    new maintenance concept called CBM+ and our audit effort was refocused to
    concentrate on the implementation of CBM+. The CBM+ concept, as planned,
    will be applicable to all weapon systems; therefore, this report does not
    specifically address aircraft depot maintenance, which was the announced title of
    the project.

    Computer-Processed Data. Computer-processed data was not used in the
    performance of this audit.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Improve the Quality of Logistics Support high-risk area.


Prior Coverage

    No prior coverage has been conducted on condition based maintenance during the
    last 5 years.




                                        10
Appendix B. Selected Initiatives Under Condition
            Based Maintenance-Plus
    Joint Strike Fighter Program – Prognostic and Health Management System.
    The Joint Strike Fighter is being developed as the next generation fighter aircraft
    for the Navy, the Air Force, the Marines Corps, and our allies. Included in the
    program is the Prognostic and Health Management System that will be
    incorporated into Joint Strike Fighter aircraft to enhance mission reliability and
    aircraft safety, as well as to reduce life-cycle support costs. The system is being
    developed to perform in-flight monitoring on the condition and performance of all
    major components and subsystems of the aircraft and transmit the data back to the
    aircraft’s base or ship. That will provide the ground crew with real-time
    information on the aircraft and enable the ground crew to be prepared to perform
    whatever maintenance is required before the aircraft lands. That will reduce the
    aircraft’s down time between sorties, thereby making the aircraft available to
    perform a greater number of sorties in a given period. The Prognostic Health and
    Monitoring System will reduce or eliminate the need for scheduled inspections
    and flight line trouble shooting. The system will also enhance flight safety by
    identifying potentially catastrophic failures before they occur.

    Integrated Mechanical Diagnostic Health and Usage Monitoring System.
    The Integrated Mechanical Diagnostic Health and Usage Monitoring System
    (IMD-HUMS) was developed as a Commercial Operations and Support Savings
    Initiative program. IMD-HUMS automatically records, analyzes, communicates,
    and stores information about the operation, condition, and usage of helicopters
    and their major assemblies. IMD-HUMS is a complete information system
    optimized to serve civil and military users, original equipment manufacturers, and
    major subsystem and component suppliers. IMD-HUMS has been designed to
    support a variety of health and maintenance functions relating to helicopters,
    including Engine Performance Assessment, Rotor Track and Balance (RTB),
    Absorber Tuning, and Mechanical Diagnostics. The IMD-HUMS was being used
    on the SH-60 and CH-53 helicopters and was being evaluated by the Army for
    use on the UH-60 helicopter.

    Army Diagnostic Improvement Program. The objective of the Army
    Diagnostic Improvement Program (ADIP) is to improve the diagnostics and
    prognostics of all Army weapon systems and equipment by the application of
    common technologies across multiple systems. The ADIP predictive
    maintenance concept originated in diesel-powered vehicles, including trucks, self-
    propelled artillery howitzers, the Bradley fighting vehicle, tank retrievers,
    bulldozers, construction equipment, and watercraft. The equipment scope of



                                        11
ADIP, particularly when Army gas turbine helicopters are added, is by far the
largest and most diverse application within DoD of a single CBM+ technology.

Serialized Item Management. Serialized Item Management (SIM) programs
enable and encourage the effective management of populations of select items
throughout their life cycles by marking the items in the population with a unique
identification number and enabling the generation, collection, and analysis of
maintenance data about each specific item. SIM programs will be primarily used
on repairable items, including repairable components and subcomponents.

Navy Integrated Condition Assessment System. The Integrated Condition
Assessment System (ICAS) is a data acquisition and analysis system comprising
hardware, software, and sensors for monitoring equipment and scheduling
maintenance based on equipment condition. ICAS presents a basic CBM+
system, which performs condition monitoring of surface ship propulsion and hull,
mechanical, and electrical subsystems and transmits condition data to a shipboard
maintenance workstation network for trend analysis.




                                    12
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
     Assistant Deputy Under Secretary of Defense (Maintenance Policy, Programs and
        Resources)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        14
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Dennis E. Payne
Marc E. Avers
Bernard M. Baranosky
Celia Harrigan
Travis R. Schenck
Elizabeth N. Shifflett
